           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   HOSPITALS’ USE AND PROTECTION
    OF SOCIAL SECURITY NUMBERS


   January 2006    A-08-06-16056




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   January 27, 2006                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Hospitals’ Use and Protection of Social Security Numbers (A-08-06-16056)



        OBJECTIVE

        Our objective was to assess hospitals’ use and protection of Social Security numbers
        (SSN) and the potential risks associated with such use.

        BACKGROUND
        Hospitals admit thousands of individuals each year. To assist in this process, and for
        other purposes, many hospitals use patients’ SSNs. Although no single Federal law
        regulates overall use and disclosure of SSNs, the Social Security Act and the Privacy
        Act of 1974 contain provisions that govern disclosure and use of SSNs. Additionally,
        the Health Insurance Portability and Accountability Act of 1996 addresses the privacy
        and security of all “individually identifiable health information.” See Appendix A for more
        information on the specific provisions of these laws.

        We selected a sample of 10 hospitals nationwide. For each selected hospital, we
        interviewed hospital personnel and reviewed hospital policies and practices for using
        and protecting SSNs. See Appendices B and C for additional details regarding our
        scope and methodology and hospitals we visited, respectively.
Page 2 – The Commissioner


RESULTS OF REVIEW
Based on our interviews with hospital personnel and reviews of hospital policies and
practices, we are concerned about hospitals’ use and protection of SSNs. Despite the
increasing threat of identity theft, some hospitals used SSNs as patient identifiers or for
other purposes, even when another identifier would suffice. In addition, some hospitals
unnecessarily displayed SSNs on documents that may have been viewed by hospital
personnel, some of whom may not have had a need to know. Based on our previous
audit and investigative findings, we know that unnecessary access, disclosure, and use
of SSNs increase the potential for dishonest individuals to obtain these numbers and
misuse them, thus creating SSN integrity issues. Some hospital personnel with whom
we spoke shared our concern and were taking steps to limit SSN use.

HOSPITALS’ USE OF SSNs IS WIDESPREAD

Hospitals primarily used SSNs for internal administrative purposes, such as admitting,
registering, billing, insurance, and research. Although the hospitals generally used
patient medical record numbers as primary identifiers, they also used SSNs as a
secondary identifier. Hospitals also collected and used SSNs to verify patients’ eligibility
or insured status because some government benefit providers (that is,
Medicare/Medicaid) and health insurance companies use SSNs as primary identifiers
and display the number on their members’ identification cards. Most hospital officials
told us they use SSNs because each is unique to an individual and does not change like
other identifiers. This is particularly vital in a hospital setting, given the importance of
tracking patients’ medical records among multiple health care providers. However,
officials at all of the hospitals we visited told us that, if patients did not provide their
SSN, the hospital assigned them an alternate number.

One hospital official told us his facility displays SSNs on the wristbands of those
patients whom the hospital admitted before 1999. However, this practice does not
apply to new patients or patients the hospital admitted in 1999 or later. The hospital
assigns these individuals a machine-generated medical record number, which is
displayed on patients’ wristbands. Displaying SSNs on patient wristbands allows
countless individuals the opportunity to view patients’ SSNs, unnecessarily subjecting
them to the possibility of identity theft.

Hospitals also provided patient SSNs to external entities. That is, hospitals provided
SSNs to third parties, such as researchers, contractors, insurance companies, and
other medical providers. They also provided patient SSNs to various Federal and State
agencies for health statistics and registries. In addition, hospitals used SSNs to track
patients’ medical records among multiple providers, which helped identify patients’
medical histories.

The executive director of a large health information association told us that almost all
hospitals include SSNs as one element of their patient’s identity file (that is, secondary
Page 3 – The Commissioner


identifier). She estimated that about 5 percent (about 288) of hospitals nationwide use
SSNs as primary patient identifiers. According to this official, patients’ SSNs are
generally displayed on every page of a paper record, every screen of an electronic
record, and the key field in all databases. Furthermore, patients’ SSNs are available to
anyone who might obtain copies of the patient’s medical record.

HOSPITALS PLACE CONTROLS OVER PATIENT INFORMATION BUT DISPLAY
SSNs ON DOCUMENTS THAT MAY BE VIEWED BY INDIVIDUALS WITHOUT A
NEED TO KNOW

Hospitals had some controls in place to safeguard patient information, including SSNs.
For example, hospitals (1) limited physical and electronic access to computers and
information systems, (2) shredded documents that contained personal identifying
information, and (3) conducted self-reviews to ensure compliance with policies and
procedures. In addition, hospitals entered into business associate agreements with
third parties that contained specific language related to personal information
safeguards.

While delivering medical services, however, some hospitals displayed SSNs on
documents that may have been viewed by others, some of whom may not have had a
need to know. We identified numerous instances in which hospital personnel, such as
doctors, nurses, laboratory technicians, dieticians, and social service personnel, had
access to medical records containing patients’ SSNs. We question whether these
individuals need to know a patient’s SSN. We also identified instances in which hospital
personnel displayed SSNs on data it sent to third parties/independent contractors, such
as consultants who provided systems and technical support. We question whether
these third parties need to know a patient’s SSN.

We believe displaying SSNs on documents (paper or electronic) that may be viewed by
hospital personnel or third parties who may not have a need to know increases the risk
that others may improperly obtain and misuse the SSN. In fact, hospital officials
acknowledged the potential risks for identity theft and fraud, and one director of hospital
operations told us he plans to recommend that patients’ SSNs be limited to only those
personnel who have a business need to know.

POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

Hospitals’ collection and use of SSNs entail certain risks. Each time an individual
divulges his or her SSN, the potential for someone to illegally gain access to personal
identifying information increases. For example, an employee at 1 hospital we visited
stole the SSNs and other personal identifying information from document labels on
13 patients’ medical records. Hospital officials told us they recognized the vulnerability
associated with displaying SSNs on document labels and discontinued this practice.
Because many hospitals still use SSNs as patient identifiers or for other purposes,
patients’ exposure to identity theft remains today. We believe the following examples
illustrate patients’ risk of exposure to such activity.
Page 4 – The Commissioner


•     Minnesota authorities convicted 2 hospital employees of stealing 32 patients’
      identities. The identity thieves used this information to open fraudulent credit card
      and telephone accounts and charge over $78,000. Both individuals were scheduled
      to be sentenced to serve a period of 4 to 6 months in a workhouse and render
      restitution. They are also prohibited from employment in which they would have
      access to confidential patient information.

•     A man used the identities of four patients at a Connecticut hospital to purchase
      $6,000 in home improvement merchandise. Police believe the perpetrator obtained
      this information from his wife, who worked at a hospital. The man was charged with
      79 counts of receiving goods and services from illegal use of a credit card, 36 counts
      of credit card crimes of possession, and numerous counts of larceny and identity
      theft.

•     A hospital employee in Alabama earned $100 for each name and SSN she gave a
      buyer who used the numbers to file fraudulent tax returns. The victims were
      children.

•     A nurse in Missouri was sentenced to 1 year and 1 day in Federal prison for stealing
      identity information of two patients. She admitted using her access to patient
      information to obtain credit accounts and make purchases on these accounts.

SOME HOSPITALS AND HEALTHCARE-RELATED ENTITIES ARE TAKING STEPS
TO LIMIT SSN USE

Incidences of identity theft at hospitals and the recognition that SSNs are linked to vast
amounts of personal information have led some hospitals to reconsider their use of
SSNs. Several hospitals we visited are taking steps to limit SSN use. In addition, some
healthcare-related entities have turned to alternate identifiers.

The director of health information services at one hospital and assistant administrator at
another hospital told us their facilities plan to truncate patients’ SSNs because of
identity theft concerns. The director also told us his hospital received a significant
number of patient and employee complaints regarding SSNs in its computer systems.
The director told us his hospital is taking steps to identify (1) hospital personnel who
need to know the entire SSN and (2) information system pathways that will be affected
by the change. Both hospitals will continue to use patients’ entire SSNs for billing and
eligibility purposes because some health insurers and Medicare/Medicaid use SSNs as
primary identifiers.

One large California health insurer we visited removed SSNs from member identification
cards because the State enacted a law1 restricting such activity. The health insurer
created a unique number to identify members in its databases. Health


1
    California Civil Code § 1798.85 (2005).
Page 5 – The Commissioner


insurer officials told us the company wanted to reduce its vulnerability to identity theft by
reducing its reliance on SSNs as primary identifiers. In fact, most of its affiliated
independent insurers have issued new identification numbers. In addition, a director
with the Centers for Medicare and Medicaid Services told us the Agency is considering
replacing SSNs with alternate identifiers because of increased identity theft and privacy
concerns. According to the director, her agency is analyzing data to determine the
types of information systems and work processes that would require revisions to
accommodate such a change. Because Medicare/Medicaid use SSNs as primary
identifiers and display the number on their members’ identification cards, we will provide
a copy of this report under separate cover to the U.S. Department of Health and Human
Services’ Inspector General.

A large health information management association we visited published best practice
procedures for safeguarding SSNs. The association recommended that healthcare
organizations “minimize the use of Social Security numbers for identification: whenever
possible, redact or replace some of the digits in the Social Security number; avoid
displaying the entire number on any document, screen, or data collection field.” In
addition, the association recommended that only “staff directly involved in patient
registration, billing, collections and number reconciliations” should have access to
SSNs. The association did not believe most hospital personnel, such as nurses,
dieticians, radiologists, or pharmacists should have access to patients’ SSNs.

CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as patient identifiers, hospitals
continue this practice. While we recognize the Agency cannot prohibit hospitals from
using SSNs as patient identifiers, we believe it can help reduce potential threats to SSN
integrity by encouraging hospitals to limit SSN collection and use. We also recognize
the challenge of educating such a large number of hospitals. However, given the
potential threats to SSN integrity, such a challenge should not discourage the Agency
from taking steps to safeguard SSNs. Accordingly, we recommend that the Social
Security Administration:

1. Coordinate with hospitals and relevant healthcare associations to educate hospitals
   about the potential risks associated with using SSNs as patient identifiers. For
   example, we believe the Agency should consider hosting or participating in
   conferences to discuss ways hospitals can enhance SSN integrity.

2. Encourage hospitals to limit their collection and use of SSNs. For example, we
   believe hospitals should safeguard patients’ SSNs by limiting access to hospital
   personnel and external entities with a business need to know and avoid displaying
   the entire number on any document, screen, or data collection field.

3. Encourage the Centers for Medicare and Medicaid Services to remove SSNs from
   its identification cards and partner with them to develop an alternate identifier that
   meets both agencies needs.
Page 6 – The Commissioner


4. Promote the best practices of hospitals that are taking steps to limit their use of
   SSNs. For example, the Agency could promote best practices through activities
   such as contributing articles to healthcare-related journals and association
   newsletters.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
               Number
APPENDIX B – Scope and Methodology
APPENDIX C – Hospitals Visited
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                        Appendix A

Federal Laws that Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Health Insurance Portability and Accountability Act of 1996 (HIPAA)
(42 U.S.C. §§ 1320d-1320d-8; P.L. 104-191, §§ 261 – 264; 45 C.F.R. Parts 160 & 164)

HIPAA’s Administrative Simplification provisions address the privacy and security of
health data, including SSNs. HIPAA’s Privacy Rule protects all "individually identifiable
health information" held or transmitted by a covered healthcare entity or its business
associate, in any form or media, whether electronic, paper, or oral. HIPAA’s Security
Rule specifies administrative, technical, and physical safeguards with which the covered
healthcare entity must comply to assure the confidentiality of electronic protected health
information.

The Social Security Act

The Social Security Act provides that “Social Security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and that no
authorized person shall disclose any such Social Security account number or related
record” (42 U.S.C. § 405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the social security number of
any person in violation of the laws of the United States…shall be guilty of a felony…”
(42 U.S.C. § 408(a)(8)).

The Privacy Act of 1974 (5 U.S.C. § 552a, note; P.L. 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for any Federal, State or local
government agency to deny any person a right, benefit, or privilege provided by law
based on the individual’s refusal to disclose his/her SSN, unless such disclosure was
required to verify the individual’s identity under a statute or regulation in effect before
January 1, 1975, or such disclosure was required by Federal statute. Further, under
Section 7(b), a Federal, State or local government agency requesting that an individual
disclose his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited, and what uses will
be made of the SSN.
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we

•   visited 10 hospitals nationwide;

•   interviewed hospital personnel responsible for patient admissions, information
    systems, medical records, and compliance with policy and procedures regarding the
    collection, use and protection of patients’ Social Security numbers (SSN);

•   reviewed applicable laws and regulations; and

•   reviewed selected articles regarding hospital employees’ and others’ misuse of
    patient demographic data, including SSNs.

In addition, we visited the American Hospital Association and the American Health
Information Management Association regarding hospitals’ collection and use of SSNs.
We also visited Blue Shield of California to discuss its experience of replacing SSNs
with unique member identification numbers. We also contacted the Centers for
Medicare and Medicaid Services regarding its use of SSNs as identifiers. The Social
Security Administration entity reviewed was the Office of the Deputy Commissioner for
Operations. We conducted our audit from May through September 2005 in accordance
with generally accepted government auditing standards.
                                                                Appendix C

Hospitals Visited

                                                               Type of   Bed
                Hospital                     Location          Control   Size


University of Maryland Medical Center   Baltimore, MD       Nonprofit    726


Northwestern Memorial Hospital          Chicago, IL         Nonprofit    657


Brookwood Medical Center                Birmingham, AL      Profit       485


John H. Stroger, Jr. Hospital of        Chicago, IL         Government   459
Cook County


Greater Baltimore Medical Center        Baltimore, MD       Nonprofit    314


Princeton Baptist                       Birmingham, AL      Nonprofit    309


San Francisco General Hospital          San Francisco, CA   Government   303


Kaiser Permanente San Francisco         San Francisco, CA   Nonprofit    243
Medical Center


Children's Hospital of Alabama          Birmingham, AL      Nonprofit    225


Cooper Green Hospital                   Birmingham, AL      Government   148
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 19, 2006                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye       /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Hospitals' Use and Protection of Social
           Security Numbers" (A-08-06-16056)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "HOSPITALS' USE AND PROTECTION OF SOCIAL SECURITY
NUMBERS” (A-08-06-16056)


Thank you for the opportunity to review and comment on the draft report. We appreciate
the report’s acknowledgement that the Social Security Administration (SSA) cannot
prohibit hospitals from using Social Security numbers (SSN) as patient identifiers and that
the report also recognizes the challenges of educating hospital communities. Our responses
to the specific recommendations are provided below.

Recommendation 1

SSA should coordinate with hospitals and relevant healthcare associations to educate
hospitals about the potential risks associated with using SSNs as patient identifiers. For
example, we believe the Agency should consider hosting or participating in conferences to
discuss ways hospitals can enhance SSN integrity.

Response

We agree with the intent of the recommendation. While we can include information about
the protection of the SSN as part of future presentations and conferences with medical
providers where we are an active participant, our outreach efforts would be contingent upon
the availability of resources. We will also consider using our Office of Disability
Program’s website, (http://co.ba.ssa.gov/disability/odp/professional_relations.html), as a
resource for educating medical professionals about the potential risks associated with using
SSNs as patient identifiers. This website is currently used to provide helpful information
for the Professional/Medical Relations Officers and Regional Professional Relations
Coordinators.

Recommendation 2

SSA should encourage hospitals to limit their collection and use of SSNs. For example, we
believe hospitals should safeguard patients’ SSNs by limiting access to hospital personnel
and external entities with a business need to know and avoid displaying the entire number
on any document, screen, or data collection field.

Response

We agree and will incorporate this recommendation in conjunction with existing and/or
future outreach efforts as indicated in our response to recommendation 1.




                                            D-2
Recommendation 3

SSA should encourage the Centers for Medicare and Medicaid Services (CMS) to remove
SSNs from its identification cards and partner with them to develop an alternate identifier
that meets both agencies’ needs.

Response

We agree with the intent of this recommendation. On December 6, 2005, CMS advised us
that they had conducted an internal survey in August 2005 to help them assess the impact of
removing SSNs from Medicare cards. CMS is now finalizing a report of their findings.
They intend to share their findings with SSA, the Railroad Retirement Board, and other
governmental and nongovernmental third parties which would be impacted by any change
involving the Medicare card and/or the use of alternative identifiers for Medicare/health
insurance purposes. Any changes CMS is considering need to be evaluated in terms of the
financial and systems impact the changes would have on the Agency. We look forward to
reviewing CMS’s report and working with them to ensure the SSN is protected from
unnecessary and/or unauthorized disclosure.

Recommendation 4

SSA should promote the best practices of hospitals that are taking steps to limit their use of
SSNs. For example, the Agency could promote best practices through activities, such as
contributing articles to healthcare-related journals and association newsletters.

Response

We agree. Through our Office of Communications’ partnerships with national and regional
hospital associations, we will request that these organizations highlight best practices of
hospitals who are taking steps to limit the use of the SSN in their healthcare-related
magazines and newsletters.




                                             D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1605

   Jeff Pounds, Audit Manager, 205-801-1606

Staff Acknowledgments

In addition to those named above:

   Theresa Roberts, Senior Auditor

   Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-08-06-16056.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
